March 4, 2021

VIA ELECTRONIC FILING

Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Moose Jooce v. Food & Drug Administration, Case No. 20-1203

Dear Clerk of the Court:
I represent Petitioners Moose Jooce, et al., in the above-referenced matter.
In accordance with Rule 37.2(a) of the Rules of the Supreme Court of the United States,
Petitioners hereby grant blanket consent to the filing of amicus curiae briefs in this
matter.
Thank you.
Sincerely,

Damien M. Schiff
Counsel of Record for Petitioners
cc: Ms. Elizabeth B. Prelogar
SupremeCtBriefs@USDOJ.gov

